           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
CONSULTING SERVICES CONTRACT FOR THE
       TIME ALLOCATION SYSTEM

    August 2008    A- A-14-08-18020




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   August 5, 2008                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Consulting Services Contract for the Time
        Allocation System (A-14-08-18020)


        OBJECTIVE
        The objectives of our audit were to determine whether APA, Incorporated, doing
        business as DecisionPath Consulting (DecisionPath), adhered to the negotiated
        contract terms, and whether Social Security Administration (SSA) personnel properly
        monitored the contract. The contract supports development of SSA’s Time Allocation
        System (TAS). We reviewed the Agency’s administrative controls and oversight of
        DecisionPath’s work in support of TAS. We did not complete an audit of the overall
        TAS project. As with our other contract administration audits, we will continue to
        monitor the status of the contract and, if warranted, we will conduct an additional review
        on the TAS project at a later date.

        BACKGROUND

        SSA provides services to the Nation through a network of community-based offices,
        central processing facilities, associated State agencies, telephone centers, and its web
        site. TAS is designed to automatically capture time employees spend on various
        Agency workloads. The time is captured from the many systems that SSA employees
        use. These transaction data are processed with SSA payroll data, and based on
        defined business rules, the resulting data are allocated to workload categories. The
        Agency developed, and continues to enhance, TAS to improve the way workload data
        are captured for such purposes as determining resource requirements and measuring
        productivity. (See Appendix B for further details.)

        SSA entered into two blanket purchase agreements (BPA) with DecisionPath to perform
        contract work for TAS under General Services Administration (GSA) Schedule contract
Page 2 – The Commissioner


number GS-35F-0300J. 1 DecisionPath was expected to provide all necessary program
management, project management, data warehousing, systems engineering and
integration, and business intelligence expertise required to assist SSA in developing and
deploying TAS.

Based on the two BPAs, the total volume of purchases from DecisionPath for TAS and
TAS-related work is anticipated to be $29 million. SSA originally estimated the total
TAS costs 2 to be approximately $20 million. DecisionPath is one of three contractors
engaged in implementing TAS. 3 The total DecisionPath costs as of January 2008 were
approximately $18.46 million.

RESULTS OF REVIEW
Based on Federal regulations, DecisionPath generally adhered to the negotiated
contract terms to develop TAS and maintained adequate timekeeping records to
support the employee hours billed (see Appendix C for the results of our tests of
invoices and SSA’s systems access controls). We found that SSA had controls in place
for the administration, oversight and accountability of the contract, including the
following.

•     Agency systems access by contractors expires after 1 year.
•     Contractor personnel must certify annually that they understand SSA's security,
      confidentiality and ethics requirements.
•     DecisionPath submitted monthly technical reports and held regular planning and
      status meetings with SSA staff.

We identified the following areas where contract management should be improved.

•     DecisionPath employees no longer working on the contract could still have badges
      that authorized access to SSA facilities.
•     Contract employees’ working status with SSA was not accurately reflected in
      suitability records.
•     The new project officer 4 and an alternate should be named in contract documents.



1
 DecisionPath was founded in 1999. DecisionPath’s goal is to help companies and Government
agencies use business intelligence and data warehousing practices and technologies to improve profits
and increase operational efficiency.
2
 Cost Benefit Analysis is for the SSA Unified Measurement System/Managerial Cost Accountability
System TAS, April 4, 2006.
3
    Other TAS contractors are Ab Initio and Lockheed Martin.
4
  On March 7, 2008, SSA issued a notification of change stating the Agency was phasing out the use of
the term “Project Officer” and replacing it with “Contracting Officer’s Technical Representative."
Page 3 – The Commissioner


Near the end of our review, we shared our findings and recommendations with SSA
employees responsible for managing the contract. SSA’s contracting, program, facilities
management and suitability offices have taken steps to address most of the issues we
identified.

DecisionPath Employees No Longer Working on the Contract Could Still Access
SSA Facilities

The temporary badges assigned to DecisionPath employees improperly had a “not-to-
exceed date” that extended beyond the end of the contract period, and it extended more
than 1 year from the issuance of the badges. Also, records maintained in the badging
office only reflected one DecisionPath badge as returned when at least 11 employees
who were issued badges no longer worked on the contract. Therefore, contract
employees who were no longer working on the contract could still have had access to
SSA facilities.

SSA policy in place during our review 5 stated that contractor badges should have a “not-
to-exceed date” of 1 year or the end of the contract, whichever is sooner. However,
SSA employees improperly issued badges to DecisionPath employees to coincide with
the 5-year life-cycle of a Homeland Security Presidential Directive (HSPD) 12
credential, 6 even though they were not issued HSPD-12 badges.

Separated employees and contractors should return access badges to SSA
management for destruction or revocation. SSA needs to ensure staffs who issue
contractor badges follow current policy for expiration dates for contractors and that
project officers ensure badges no longer needed by contract personnel are properly
retrieved and destroyed.

Contract Employees’ Working Status with SSA Was Not Accurately Reflected in
Suitability Records

A number of DecisionPath employees who had either left DecisionPath or no longer
worked on the contract were still being reported as active in SSA’s suitability records.
Additionally, the Agency’s suitability records reflected only one DecisionPath employee
as suitable to work under the current contract, SS00-06-40018, although they had been


5
 Materiel Resources Manual (MRM) 04.51.08 Attachment C. Mandatory Minimum Access Badge
Procedures, February 25, 2002.
6
  HSPD-12 was issued on August 27, 2004. Policy for a Common Identification Standard for Federal
Employees and Contractors. HSPD-12 directs the implementation of common identification standards for
Federal employees and contractors to ensure secure and reliable forms of identification are issued by the
Government to its employees and contractors, including contractor employees. Effective
December 31, 2007, SSA updated its policy regarding contractor badges to address changes mandated
by HSPD-12. The new policy states that current SSA access badges for both contractors and SSA
employees will be valid until replaced by new “smart cards.” Use of the new cards will be phased in for
both physical and logical access to SSA facilities over the next 3 years. See MRM 04.51, Personal
Identity Verification and Credential Issuance Process.
Page 4 – The Commissioner


cleared for the same work on the BPA that was closed, SS00-04-40019. The lack of
current suitability records diminishes the reliability of the Agency system that documents
a contractor's authorization to work on an SSA contract award.

The suitability clause in the contract requires that personnel performing on the contract
who either leave the company or are removed from the project notify the Agency’s
Protective Security Officer immediately. Suitability records should then reflect when
contractor staff are no longer active on the contract. Additionally, the suitability records
should reflect the contract number employees are cleared to work under.

The suitability records were not up-to-date because it is likely the suitability staff was not
receiving information about the separated or retired contractor staff no longer working
on the contract. SSA should ensure contractors notify the Protective Security Officer
immediately when employees either leave the company or are removed from the project
to ensure contractor staffs are correctly recorded in the suitability files. Also, the
Agency should work to ensure its suitability documentation is current concerning which
contracts an employee is cleared to work under.

The New Project Officer and an Alternate Should be Named in Contract
Documents

In 2007, a new SSA project officer was assigned to the TAS contract. However, the
former project officer, who had retired, was still named in the DecisionPath contract
documents we reviewed. Additionally, no alternate had been named. As a result, SSA
did not have someone officially designated in the contract documents as a project
officer or a back-up to represent the contracting officer in his/her absence in the
technical phases of the contract.

It is SSA practice to assign a project officer and an alternate on every contract. 7 After
we informed contract officials of this oversight, they named the new project officer and
an alternate in the contract.

CONCLUSION AND RECOMMENDATIONS

DecisionPath generally adhered to the negotiated contract terms for the development of
TAS, provided the Agency with technical progress reports and maintained adequate
timekeeping records to support the employee hours billed. SSA had controls in place;
however, there were areas where improvements could be made. These areas included
(1) employees no longer working on the contract could still have had badges authorizing
access to SSA facilities, (2) contract employees’ working status with SSA was not
accurately reflected in the suitability records, and (3) a new project officer and an
alternate were not named in contract documents.




7
 MRM Chapter 06, Instruction Number 05: Technical Support for Acquisitions – The Role of the Project
Officer.
Page 5 – The Commissioner


We therefore recommend that SSA:

1. Ensure staffs who issue contractor badges follow policy for expiration dates for
   contractors.
2. Ensure contractors return badges no longer needed by contract personnel to SSA
   management for disposal.
3. Ensure contract employees’ working status is accurately recorded in the suitability
   files.
4. Ensure all current and future contracts reflect the current project officer and an
   alternate.

AGENCY COMMENTS
SSA agreed with all of our recommendations. SSA’s comments are included in
Appendix D.




                                                 Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope, Methodology and Test Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
BPA            Blanket Purchase Agreement
DecisionPath   APA, Incorporated, doing business as DecisionPath Consulting
GSA            General Services Administration
HSPD           Homeland Security Presidential Directive
MRM            Materiel Resources Manual
OIG            Office of the Inspector General
SSA            Social Security Administration
SUMS/MCAS      Social Security Administration Unified Measurement and
               Managerial Cost Accountability Systems
TAS            Time Allocation System
                                                                            Appendix B

Background
Time Allocation System

The July 31, 2003 Time Allocation System (TAS) Vision and Scope Statement serves
as the foundation for the project and states the following.

          This system will provide comprehensive management and financial
          information essential to the sound management of the Agency and its
          programs and workloads. Time allocation systems are necessary to measure
          or apportion the work time (e.g., work hours) worked by SSA employees
          among the various activities they perform, programs they support, and
          organizations in which they work. This information is used for such purposes
          as:   cost allocation and analysis; budget formulation, justification and
          execution; staffing allocation methodologies; and productivity measurement
          systems. 1

Business objectives and success criteria cited in the 2003 TAS Vision Statement are to

•     provide time allocation measures that are valid for on-going workloads and tasks at
      the local office level, module and branch levels at a 95-percent confidence level;

•     develop and implement an integrated system that will allocate work time usage
      information among organizations and workload activities consistently in all
      components; and

•     automate the collection of data to the extent possible and support any remaining
      reporting by automated collection systems.

The TAS project supports the Social Security Administration Unified Measurement and
Managerial Cost Accountability Systems (SUMS/MCAS). The SUMS/MCAS vision is to
capture, count and measure all work consistently, regardless of where the work is
performed. This includes direct workloads as well as indirect support and measurable
staff work. MCAS is expected to satisfy Government-wide cost accountability
regulations, provide full costs for SSA programs and support strategic decision-making.
Before SUMS/MCAS, there were many sources of management information that were
not easily reconciled. With SUMS/MCAS, there will be one uniform, consistent source
of information.




1
    TAS Vision and Scope Statement, July 31, 2003 Version.
                                                                       Appendix C

Scope, Methodology and Test Results
We conducted our audit between August 2007and May 2008 in Baltimore and
Gaithersburg, Maryland. We reviewed the Agency’s administrative controls and
oversight of DecisionPath’s work in support of the Time Allocation System (TAS). As
with other contract administration audits we conduct, we will continue to monitor the
status of the contract and, if warranted, we will conduct an additional review of the TAS
project at a later date.

The principal entities audited were the Social Security Administration’s (SSA) Offices of
Acquisition and Grants (the contracting office) and Earnings, Enumeration and
Administrative Systems (the program office). We also reviewed records and
interviewed staff in the Agency’s Offices of Budget, Finance and Management, and
Operations.

We conducted our audit in accordance with generally accepted government auditing
standards. We planned and performed the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. To meet our objectives, we

•   reviewed applicable Federal laws and regulations and applicable SSA policies and
    procedures;
•   reviewed the General Services Administration (GSA) Schedule Contract Number
    GS-35F-0300J and the two SSA Blanket Purchase Agreements (BPA) against the
    GSA contract, SS00-06-40018 and SS00-04-40019;
•   interviewed Agency and APA, Incorporated, doing business as DecisionPath
    Consulting (DecisionPath), staffs;
•   visited DecisionPath Consulting headquarters in Gaithersburg, Maryland;
•   tested a sample of invoices;
•   reviewed the contractor’s monthly status reports;
•   reviewed the Agency systems access request forms and systems security records;
•   reviewed Agency contractor suitability records;
•   reviewed SSA-owned laptops assigned to DecisionPath employees; and
•   reviewed records from the SSA badging office.




                                           C-1
Further, except for the issues noted in the findings, we determined the Agency's data
related to invoices and contractor badging and suitability records pertaining to
DecisionPath staff were sufficiently reliable given the audit objective and intended use
of the data and should not lead to incorrect or unintentional conclusions.

Testing Methodology and Results

Sample 1 – Test of Invoices

For the two BPAs with DecisionPath for the development of TAS, we selected for review
the highest dollar invoice from each purchase call. To perform our review, we obtained
employee timesheets from DecisionPath for the periods indicated on the invoices. We
found that DecisionPath had adequate timekeeping records to support all the hours
billed.

For BPA SS00-04-40019, there were seven purchase calls, and for BPA
SS00-06-40018, there were three purchase calls. For BPA SS00-04-40019, there were
invoices submitted and paid totaling $10.9 million associated with the seven purchase
calls. We tested $1.5 million of the $10.9 million as shown in Table 1.

   Table 1: Invoices Selected Under Blanket Purchase Agreement SS00-04-40019

                                                                         Was Invoice
              Call               Invoice             Invoice             Adequately
            Number               Number              Amount              Supported?
            Call 0001             2023-5            $317,082.18             Yes
            Call 0002            2024-4              $62,207.00               Yes
            Call 0003            2025-6             $103,384.00               Yes
            Call 0004            2026-4             $157,284.85               Yes
            Call 0005            2027-5             $312,498.12               Yes
            Call 0006            2028-9             $499,646.67               Yes
            Call 0007            2031-2              $41,376.30               Yes
             Total                                $1,493,479.12

Under the second BPA SS00-06-40018, there were invoices submitted and paid
through July 23, 2007 totaling $3.9 million, associated with the three purchase calls.
We tested $0.8 million of the $3.9 million as shown in Table 2 on page C-3.




                                           C-2
Table 2: Invoices Selected Under Blanket Purchase Agreement SS00-06-40018

              Call              Invoice           Invoice       Was Invoice Adequately
             Number             Number            Amount             Supported?
            Call 0001            2033-2           $482,688.04            Yes
            Call 0002            2035-3            $48,708.30            Yes
            Call 0003          2033-003-1         $230,822.92            Yes
              Total                               $762,219.26

The invoice periods ranged from May 2004 through July 2007.

Sample 2 – Test of Systems Access Controls

We reviewed the Agency’s security controls over all 33 DecisionPath staff who were
granted access to SSA’s systems from the beginning of the contract through
August 3, 2007.

Specifically, we determined whether:

1. Approved Application for Access to SSA Systems (SSA -120) forms were on file.
2. Approved High Assurance (Virtual Private Network) Access Forms were on file, as
   appropriate.
3. Signed Contractor Personnel Security Certification(s) were on file.
4. Evidence of suitability determinations for contract employees were in SSA’s records.

We found that the required SSA security forms were prepared and signed for the
DecisionPath staff who were granted access to SSA systems. Additionally, we found
the Agency's Suitability Office had determined the DecisionPath employees suitable
who (1) had access to programmatic and sensitive information and (2) worked on-site at
SSA.

Finally, we looked at security systems records to determine the level of access actually
granted to DecisionPath employees. We found that the DecisionPath staff was granted
the approved levels necessary to perform tasks under the TAS contract.




                                            C-3
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

 MEMORANDUM

Date:      July 25, 2008                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Consulting Services Contract for the Time Allocation System” (A-14-08-18020)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Your staff may direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S CONSULTING
SERVICES CONTRACT FOR THE TIME ALLOCATION SYSTEM” (A-14-08-18020)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Ensure staffs who issue contractor badges follow policy for expiration dates for contractors.
Comment

We agree. We will ensure staff that issue contractor badges follow policy regarding the
expiration dates.

Recommendation 2

Ensure contractors return badges no longer needed by contract personnel to management for
disposal.
Comment

We agree. We will ensure contractor badges are returned for disposal once the badge is no
longer needed by the contractor. When contractor personnel performing under this contract
leave the company, are removed from the project, or are arrested and charged with a crime
during the term of this contract, the contractor shall notify our Protective Security Officer
immediately. The notification must include the name of the contractor personnel and their
Social Security number. If the contractor personnel was arrested and charged with a crime, the
notification must also include the type of charge(s), the court date, and, if available, the
disposition of the charges(s).

Recommendation 3

Ensure contract employees’ working status is accurately recorded in the suitability files.
Comment

We agree. We conduct background investigations on contractor employees and maintain a
database that contains data on these individuals. We will remind the contractor to notify the
Protective Security Officer immediately when an employee either leaves the company or is
removed from the project. When a contractor employee is removed from the contract for reasons
other than suitability or a contract expires and is not extended, we will properly adjust and
annotate the suitability database to reflect the actual status of the individual.

Recommendation 4

Ensure all current and future contracts reflect the current project officer and an alternate.


                                                 D-2
Comment

We agree. We recently transitioned from the term "project officer" to the term "Contracting
Officer's Technical Representative (COTR)." Consider updating the report to include the current
terminology.

We will modify the contract in question to reflect the current COTR and alternate COTR. We
will ensure that all future contracts are modified as soon as a new COTR or an alternate COTR
has been designated. We will send a reminder to Contracting Officers via our acquisition update
email notification system.



[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Information Technology Audit Division, (410) 965-9702

   Mary Ellen Moyer, Acting Audit Manager, (410) 966-1026

Acknowledgments

In addition to those named above:

   Deborah Kinsey, Auditor in Charge

   Harold Hunter, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-08-18020.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
